I

NO:
IN THE SUPREME COURT OF THE UNITED STATES

MR.ROBIN RICK MANNING# 165580
Petitioner,
V

MICHIGAN SUPREME COURT
Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Sixth Circuit

PROOF OF SERVICE
I , MR.ROBIN RICK MANNING# 165580, the undersigned Petitioner in the above
entitled ease, do hereby declare that on this
day of July 2021,1 have served copies of the
above Petition for Writ of Certiorari, Motion to Proceed In forma pauperis, Affidavit in support of
motion, Appendix, A, B, C, D,E and this proof of service upon the following parties:
OFFICE OF THE ATTORNEY GENERAL
Attorney for the Respondent
P.O.BOX30217
Lansing Michigan 48909-7717

OFFICE OF THE CLERK
SUPREME COURT OF THE UNITED STATES
Washington D.C. 20543

by placing same in sealed envelopes, properly addressed, and handing them over to prison officials
at the Baraga Correctional Facility, to be placed in the prison’s outgoing mail via the Michigan
Department of Correction's mandated expedited legal mailing system, with first class postage
prepaid and affixed. I declare under the penalty that the foregoing is true and correct.
MR.ROBIN RICK MANNING# 165580
Baraga Correctional Facility
13924 Wadaga Rd.
Baraga Michigan 49908
2?X t 'Z£>2-\

